No. 19-432
IN THE SUPREME COURT OF THE UNITED STATES
ALL AMERICAN CHECK CASH[NG, INC. ET AL.,
PETITIONERS
V.

CONSUMER FINANCIAL PROTECTION BUREAU
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 6TH day of November 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5434 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
November 6, 2019.

Noel J. Francisco
Solicitor Genera!
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 6, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0432
ALL AMERICAN CHECK CASHING, INC., ET AL.
CFPB

OLIVER J. DUNFORD
PACIFIC LEGAL FOUNDATION
4440 PGA BOULEVARD
SUITE 307
PALM BEACH GARDENS, FL 33410
BAS@PACIFICLEGAL.ORG
KYLE DOUGLAS HAWKINS
OFFICE OF THE ATTORNEY GENERAL
P.O. BOX 12548 (MC 059)
AUSTIN, TX 78711-2548
512-936-1700
KYLE.HAWKINS@OAG.TEXAS.GOV
THEODORE B. OLSON
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, NW
WASHINGTON, DC 20036
202-955-8500
TOLSON@GIB SONDUNN. COM

